No. 19-228

In the Supreme Court of the United States
UNITED STATES OF AMERICA ex rel.
MICHAEL RAY PERRY, Petitioner
v.
HOOKER CREEK ASPHALT & PAVING, LLC, et al.

CERTIFICATE OF SERVICE
I, Michael W. Peterkin, counsel for Hooker Creek Asphalt & Paving, LLC,
hereby certify that on this 18th day of October, 2019, I caused three copies of the
Brief in Opposition to be served by overnight delivery on the following counsel:
Jeremy L. Friedman
Counsel of Record
2801 Sylhowe Road
Oakland, CA 94602
Derek Johnson
Johnson, Johnson and Schaller, PC.
975 Oak Street
Suite 1050
Eugene, OR 97401
Counsel for Petitioner
I further certify that all parties required to be served have been served.
/s/Michael W. Peterkin_____
Michael W. Peterkin
Peterkin Burgess
222 NW Irving Ave.
Bend, OR 97703
(541) 389-2572
mwp@peterkinburgess.com

